No. 20-5923
IN THE

Supreme Court of the United States
CHARLES DON FLORES,
Petitioner,
v.
TEXAS,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 20th day of October 2020, caused a paper copy of the Brief of The
Innocence Project as Amicus Curiae In Support of Petitioner to be delivered to the
Court and an electronic version of the document to be delivered to:
Gretchen S. Sween
Sween Law
PO Box 5083
Austin, TX 78763-5083
(214) 557-5779
gsweenlaw@gmail.com
Counsel for Charles Don Flores

Jaclyn O’Connor Lambert
Assistant District Attorney
Dallas County District Attorney
Frank Crowley Courts Bldg
133 N Riverfront Blvd, LB 19
Dallas, TX 75207
(214) 653-3625
Jaclyn.OConnor@dallascounty.org
Counsel for Texas

/s/ Ishan K. Bhabha
Ishan K. Bhabha

